C'OCKLE

2311 Douglas Street CA L I ; E-Mail Address:
Omaha, Nebraska 68102-1214 ega B riefs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-1334

BRADLEY BOARDMAN,
a Washington Individual Provider, et al..
Petitioners,

v.
JAY R. INSLEE,
Governor of the State of Washington, et al.,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that | did, on the 23rd day of April, 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF GOLDWATER INSTITUTE AND ILLINOIS POLICY
INSTITUTE AS AMICI CURIAE SUPPORTING PETITIONERS in the above entitled case. All parties required to be served
have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

JACOB HUEBERT*

SCHARF-NORTON CENTER FOR
CONSTITUTIONAL LITIGATION
AT THE GOLDWATER INSTITUTE

500 E. Coronado Rd.

Phoenix, AZ 85004

(602) 462-5000

litigation@goldwaterinstitute.org

*Counsel of Record

Counsel for Amici Curiae

Goldwater Institute and Iflinois Policy Institute

Subscribed and sworn to before me this 23rd day of April, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska
ne | Konee. QLinws Onder: hehe

Notary Public Affiant 40936

‘ity Comma, Exp. September §, 2023

 
Attomeys for Petitioners

Paul D. Clement
Counsel of Record
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com
Party name: Bradley Boardman, a Washington Individual Provider, et al.

Attorneys for Respondents

Noah Guzzo Purcell
Counsel of Record
Office of the Attorney General
1125 Washington Street, SE
P.O. Box 40100
Olympia, WA 98504-0100
360-753-6200
noahp@atg.wa.gov
Party name: Jay R. Inslee, Governor of the State of Washington, et al. (except Campaign to Pre-
vent Fraud and Protect Seniors)

Paul J. Lawrence

Pacifica Law Group

1191 Second Avenue

Suite 2000

Seattle, WA 98101

206-245-1700

paul. lawrence@paficialawgroup.com

Party name: Campaign to Prevent Fraud and Protect Seniors
